<html>
<title> - PRESERVING PROGRESS: TRANSITIONING AUTHORITY AND IMPLEMENTING THE STRATEGIC FRAMEWORK IN IRAQ, PART 1</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   PRESERVING PROGRESS: TRANSITIONING
                AUTHORITY AND IMPLEMENTING THE STRATEGIC
                       FRAMEWORK IN IRAQ, PART 1

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 1, 2011

                               __________

                           Serial No. 112-29

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
66-779                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3057405f705345434458555c401e535f5d1e">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Patricia M. Haslach, Iraq Transition Coordinator, U.S. 
  Department of State............................................     5
Colin Kahl, Ph.D., Deputy Assistant Secretary for the Middle 
  East, U.S. Department of Defense...............................     7
Mr. Christopher Crowley, Senior Deputy Assistant Administrator 
  for the Middle East Bureau, U.S. Agency for International 
  Development....................................................     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Patricia M. Haslach, Colin Kahl, Ph.D., and Mr. Christopher 
  Crowley: Prepared statement....................................    11

                                APPENDIX

Hearing notice...................................................    28
Hearing minutes..................................................    29


   PRESERVING PROGRESS: TRANSITIONING AUTHORITY AND IMPLEMENTING THE 
                  STRATEGIC FRAMEWORK IN IRAQ, PART 1

                              ----------                              


                        WEDNESDAY, JUNE 1, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon, the Subcommittee on the Middle 
East and South Asia will come to order.
    I want to warn folks that we are probably going to be 
interrupted by votes here in a relatively short period of time, 
at which time we will probably be over there for \1/2\ hour to 
perhaps 40 minutes. But we will come back as quickly as we can. 
Other members will be coming in, so that they can avoid my 
opening statement probably, but they will get here.
    I want to welcome all of my colleagues to this hearing of 
the subcommittee. This hearing was called to assess the Obama 
administration's Iraq policy as we approach the official 
transition from Department of Defense to the Department of 
State lead.
    June 1 will mark approximately 6 months until all U.S. 
troops--combat or otherwise--are scheduled to leave Iraq. As of 
January 1, 2012, it will fall to the State Department to 
oversee Iraq's continued progress in the implementation of the 
goals outlined in the Strategic Framework Agreement.
    Having just returned from Iraq a little over a week ago, I 
appreciate how critical the work our military and our State 
Department does as we continue to carry out the mission there. 
In conjunction with the Iraqi partners on the ground, they have 
helped set Iraq on the course to become a stable, secure, and 
democratic country that respects human rights. But as we look 
with favor upon these hard-won gains, we must remember that we 
are not there yet.
    Earlier today Baghdad suffered both a car bomb and a 
roadside bomb, wounding 16 people so far. Iraq's recent 
progress is, regrettably, as precarious as it is positive. It 
is far too easy to look at where we are today and forget where 
we were just several years ago. And although the 
administration's plan to transition the mission is well 
intentioned, I am concerned that it is neither well timed nor, 
unfortunately, well reasoned in a number of areas.
    Our brave men and women in uniform have fought tirelessly 
for over 8 years to get us to where we are today. Thousands of 
lives have been lost. Billions of dollars have been spent. The 
worst possible outcome for us today would be to withdraw before 
Iraq is ready to stand on its own. And there is reason to 
question Iraq's readiness.
    In January 2011, U.S. forces-Iraqi reported to the Special 
Inspector General for Iraq Reconstruction that,

        ``The U.S. faces the choice of making additional 
        investments to fill essential gaps in Iraqi security 
        forces, capabilities, or accept the risk that they will 
        fall short of being able to fully secure Iraq from 
        internal and external threats by the time U.S. forces 
        department, in accordance with the security 
        agreement.''

    Echoing those concerns, Lieutenant General Babakir Zebari, 
General Chief of Staff of the Iraqi army, acknowledged that the 
Iraqi army still depends on U.S. forces for the protection of 
its airspace and borders.
    In 2010, as the U.S. was ending its combat mission, Zebari 
stated that ``If I were asked about the withdrawal, I would say 
to politicians, `The U.S. Army must stay until the Iraqi army 
is fully ready in 2020.' ''
    At its core, the discussion about transition breaks down to 
two critical questions. Does the State Department have the 
capability to succeed? And, if not, should the U.S. military 
remain in Iraq in some meaningful capacity to help consolidate 
gains? Many in both the U.S. and the Iraqi Government doubt 
that the Iraqi security forces will be prepared to defend the 
Iraqi state from internal and external threats by December 
2011, just the end of this year.
    And although it may be politically expedient, both in the 
U.S. and in Iraq, to seek withdrawal by that date, it may not 
be sound strategy. It is an undeniable fact that our military 
forces continue to play a vital role on the ground in Iraq. By 
continuing to serve as the guarantor of Iraq's security and 
stability, we allow its democratic institutions to grow and to 
mature.
    And while there are many conflicts that draw our attention, 
America and this Congress must remain dedicated to achieving 
success in Iraq. It is in America's interest, and it is in 
Iraq's interest, to see a democratic Iraq prosper and flourish. 
That is our strategic objective, and we should do everything in 
our power to ensure it happens, including, if need be, by 
extending our military presence on the ground.
    More and more, Iraqi political and military figures have 
come out in support of extending the deadline to withdraw. But 
as the check comes, no one wants to be left paying the bill. 
The domestic political cost in Iraq of asking the U.S. to stay 
has left Iraq's leadership pointing fingers and passing bucks, 
and I saw that firsthand when I was in Iraq just last week.
    This cannot be where it ends. Responsible leadership, 
whether in the U.S. or in Iraq, cannot sacrifice hard-earned 
strategic achievements for short-term political gains. We--
Iraqis and Americans--must not allow that to happen.
    This hearing is meant to be an opportunity for members to 
ask the administration what it seeks to achieve in Iraq and how 
it plans to achieve it. However, our goal today should not 
simply be to judge up or down the plans presented before us. It 
should be to find that policy which will get us to where we 
need to go.
    The United States has spent nearly a decade securing and 
helping to build the foundation of a prosperous and democratic 
Iraq. A premature withdrawal risks squandering those gains. It 
would be a failure of colossal proportions to seize defeat from 
the jaws of victory, and yet that is precisely what I fear may 
come to pass.
    And I will now yield to the gentleman from New York, the 
distinguished gentleman, Mr. Ackerman, former chair and now the 
ranking members of the committee, for 5 minutes.
    Mr. Ackerman. I thank the chairman. Today's hearing is, 
indeed, a very important one. At a hearing on this same subject 
last November, I suggested that most Americans and most Members 
of Congress think that we are basically done in Iraq. Our 
combat troops have left Iraq last year, and the rest of our 
50,000 troops are coming home at the end of this year.
    As a political matter, Iraq is yesterday's problem and 
yesterday's news. The only problem with this view is that it is 
completely at odds with both reality in Iraq and the 
administration's plans for it.
    As this committee heard last year from Assistant Secretary 
of State Jeffrey Feldman, American assistance is intended to 
``help Iraq meet its needs, stand up its economy, and cement 
its democratic system over the next 5 to 7 years.'' I will 
repeat what he said--5 to 7 years.
    To do all of this assisting and stand upping and cementing, 
the U.S. mission in Iraq will be spending billions of dollars, 
operating five major diplomatic facilities, and employing as 
many as 13,000 people who will be operating a fleet of military 
vehicles and helicopters, and maybe engage in such diplomatic 
operations as ``counter, rocket, artillery, and mortar 
notification, and neutralization response.''
    At that same hearing, Deputy Assistant Secretary Kahl 
warned that ``We are now at a point where the strategic 
dividends of our sacrifice are within reach, as long as we take 
the proper steps to consolidate them.'' Meaning what? He said, 
``The long-term strategic partnership with Iraq, based on our 
mutual interest and mutual respect.''
    Secretary Feldman emphasized essentially the same point, 
noting that ``The strategic importance of this moment cannot be 
overemphasized.'' I thought then that we had a major problem. I 
am now convinced that we have a total disconnect.
    While the administration is planning for an Iraq that is 
going to be continuing its recovery and reconstruction with the 
aid of a multi-billion dollar American presence, the public and 
Congress aren't just moving swiftly to the exits on this, they 
have actually left the building.
    If there is one lesson the Obama administration can't seem 
to learn is it has to be--that nothing explains itself, and 
nothing sells itself. If the administration thought last year 
that it was vital to our national security interest to spend 
billions of dollars over the next 5 to 7 years to establish a 
strategic partnership with Iraq, then a vastly more robust 
effort to sell this policy to the Congress and the American 
people was necessary.
    With all due respect to our distinguished witnesses--and 
they are, indeed, distinguished--this panel at this time will 
simply not be enough.
    Personally, I would prefer that we do not repeat our dismal 
performance in Afghanistan, where after driving out the 
Soviets, and then driving out the Taliban, we, as a nation, 
abandoned our prior allies to their fates. It was short-sighted 
and produced exactly the bad results that were anticipated at 
that time.
    Now it looks like we are going to make the very same 
mistake in Iraq. All the blood, all the treasure, and all the 
national trauma, and where are we? We are on our way, at the 
very moment when a smaller, smarter investment would finally 
give us some hope of salvaging some foreign policy benefit, 
from the horribly misbegotten war in Iraq, but the 
administration is going to have to sell a lot of members on an 
outgoing effort that those members do not want, and they don't 
believe we need, and that they have been counting the days 
until it finished.
    The collision of our expectations and the administration's 
policy is not going to be pretty. And with that, Mr. Chairman, 
I would yield back my time.
    Mr. Chabot. Thank you. The gentleman yields back.
    I think the two votes have started on the floor, although I 
didn't hear bells go off. But we can probably get through the 
introductions at least before we go over for votes. Two votes? 
Two ballots, okay.
    And we will begin with the Ambassador, Ambassador Patricia 
M. Haslach. I have been told it rhymes with a very popular 
insurance company commercial, but I am not going to do my 
imitation, but that is the correct pronunciation? Excellent. 
And she currently serves as the State Department's coordinator 
for Iraq transition in the Office of the Deputy Secretary for 
Management and Resources.
    In this capacity, she is responsible for coordinating all 
State Department-Washington aspects of the U.S. transition from 
military to civilian operations in Iraq, working closely with 
our Ambassador to Iraq, James Jeffrey, whom we spent 
considerable time with when we were there, the U.S. military, 
and other U.S. Government departments and agencies.
    Ambassador Haslach has previously served as deputy 
coordinator for diplomacy for the U.S. Global Hunger and Food 
Security Initiative, assistant chief of mission for assistance 
transition at the U.S. Embassy-Baghdad, director of the Office 
of Afghanistan, Ambassador to the Asia Pacific Economic 
Cooperation Forum, APEC, the U.S. Ambassador to the Lao 
People's Democratic Republic.
    Ambassador Haslach received her M.A. in International 
Affairs from Columbia University, and her B.A. from Gonzaga 
University, and we appreciate you being here this afternoon.
    And I will introduce the other two witnesses. Secondly--I 
have been informed that we actually have 5 minutes to go on the 
vote, in which case we will save the introduction of the next 
two witnesses until we come back.
    So we are in recess here briefly, and we will be back as 
soon as the votes are over. We are in recess.
    [Recess.]
    Mr. Chabot. The committee will be back in order.
    I am going to go on with the introductions now. I think 
next we had Dr. Colin Kahl, who currently serves as the Deputy 
Assistant Secretary of Defense for the Middle East. Dr. Kahl is 
on a 3-year public service leave from Georgetown University, 
where is a professor in the Edmund A. Walsh School of Foreign 
Service.
    Prior to joining the Defense Department, he was a senior 
fellow at the Center for a New American Security, and served as 
coordinator for the Obama campaign's Iraq Policy Expert Group. 
In 2005/2006, he was a Council on Foreign Relations fellow, 
working at the Department of Defense on counterinsurgency, 
counterterrorism and stability operations.
    He received his Ph.D. in Political Science from Columbia 
University, and his B.A. in Political Science from the 
University of Michigan.
    And we welcome both of you here.
    And last, but not least, is Christopher D. Crowley, who 
currently serves as the Senior Deputy Assistant Administrator 
for the Middle East, from 2007 to 2010. Prior to this 
assignment, he was USAID mission director in Iraq. A career 
minister in the Senior Foreign Service, Mr. Crowley joined 
USAID in 1971 as an assistant area development advisor in 
Vietnam. He has since served as director of USAID's regional 
mission for Central Asia, director of the program office in 
USAID-India, and deputy mission director in Egypt.
    In 1994, following the Oslo Accords, Mr. Crowley became the 
first mission director for the West Bank and Gaza. Mr. Crowley 
holds a bachelor of science degree in Physical Sciences from 
The Ohio State University, a master's degree in International 
Relations from the University of Pennsylvania, and a master's 
degree in public administration from The John F. Kennedy School 
of Government at Harvard University.
    And we welcome all three of you here this afternoon. And, 
as you know, we operate under the 5-minute rule, so if you 
could keep your remarks to that time. There is a lighting 
device on the table that will warn you. When the red light 
comes on, that is--your time has concluded. And then, we will 
ask questions for the same period of time.
    And without further ado, we will, again, welcome you, Ms. 
Haslach.

     STATEMENT OF MS. PATRICIA M. HASLACH, IRAQ TRANSITION 
             COORDINATOR, U.S. DEPARTMENT OF STATE

    Ambassador Haslach. Thank you, Chairman Chabot, 
Representative Ackerman, and distinguished committee members.
    Thank you for holding this hearing and inviting me to 
appear before you today to discuss the issues facing Iraq, and 
the challenges associated with the United States' transition 
from a military-led to a civilian-led presence.
    I would like to take this time to submit our joint written 
testimony for the record.
    We have significant national interests in Iraq that require 
the continuation of strong U.S. support to ensure that we do 
not lose the fragile progress that has been achieved through 
tremendous sacrifice. We face a critical moment that will 
determine whether we achieve our goal of a sovereign, stable, 
and self-reliant Iraq.
    We must recognize that the ripples of Iraq's success also 
extend beyond Iraq and the United States. Iraq is poised to 
become a political and economic leader in the Middle East 
region. As the Middle East faces steep challenges and an 
unknown future, Iraq must take center stage as a beacon of 
democracy and an anchor of U.S. support for the region.
    Countries in the region and around the world look to our 
efforts in Iraq to assess the sincerity with which we approach 
the Arab world, and the people of the Middle East and North 
Africa look to Iraq as an example of what is possible in the 
region--a democracy whose government is elected by the people 
and whose purpose is to serve the people.
    The transition that we are executing in Iraq is vital to 
our national interest. To pursue and strengthen these 
interests, we must strengthen our long-term partnership with 
the Government of Iraq and the Iraqi people. The Strategic 
Framework Agreement--an agreement signed between the United 
States and Iraq--serves as the framework and road map in 
building these bilateral ties.
    In the Government of Iraq, we have found determined 
partners who are committed to the shared vision. Prime Minister 
Maliki and other Iraqi leaders consider the agreement to be the 
foundation of U.S. and Iraqi relations. With the strong support 
from the Iraqis, we look forward to building a long-term 
partnership that will strengthen Iraq, secure the national 
interests of both countries, and provide stability to the 
region.
    The time is right for this transition. The security 
situation, while still a concern, continues to improve, 
providing an opening through which the people of Iraq can focus 
not on fear of violence, but on the prospects of rebuilding a 
strong economy and forming a government that is more efficient, 
less corrupt, and committed to improving the nation. The people 
of Iraq are eager to build a strong Iraq, and we must be there 
to support them.
    What the State Department and our partners around the 
interagency are trying to accomplish with this transition is at 
the forefront of diplomacy. Its success will not only determine 
the fate of an emerging friend and ally, but will shape the 
future of U.S. engagements in the Middle East and in conflict 
and post-conflict areas around the world.
    This transition is one of the most important international 
endeavors that the United States is undertaking, and its 
success or failure will have global implications. We cannot 
fail.
    We will do this always mindful of the costs it requires the 
American people to bear. The United States has sacrificed much 
to reach this critical moment. Now is not the time to hesitate 
or to change course. We are in mid-stride and must maintain our 
determination and momentum to secure our footing and our 
direction.
    The transition that we are implementing now began years 
ago, and it is critical that we follow through. The strategy 
that we will continue to pursue is the best balance between 
what is necessary to achieve our interests and what we can 
honestly call upon the American people to support.
    It is because of the tremendous sacrifice that Americans 
have made in Iraq that we must continue our critical missions 
there. And through the historic Strategic Framework Agreement 
made between the United States and Iraq, we find that our two 
countries, who for years clashed as adversaries, now share a 
common goal--a sovereign and prosperous Iraq that is a strong 
ally of the United States, and is committed to and capable of 
ensuring security, providing services, and addressing the will 
of the Iraqi people. Now is the time to work together to 
achieve that goal.
    In closing, I would like to thank Dr. Kahl and Mr. Crowley 
and their staffs, Ambassador Jeffrey and his Embassy, General 
Austin and his troops, and the many offices and bureaus 
throughout the Department of State, and other U.S. departments 
and agencies, that are involved in this transition.
    Planning and implementing this transition has required the 
tireless efforts of our top men and women, many of them risking 
their lives to ensure that everything we have been fighting and 
working for over the last decade is not lost.
    Thank you again for this opportunity to appear before you 
today. I would be happy to answer any questions the committee 
may have.
    Mr. Chabot. Thank you, Madam Ambassador.
    Dr. Kahl, you are recognized for 5 minutes.

STATEMENT OF COLIN KAHL, PH.D., DEPUTY ASSISTANT SECRETARY FOR 
          THE MIDDLE EAST, U.S. DEPARTMENT OF DEFENSE

    Mr. Kahl. Thank you. Chairman Chabot, Representative 
Ackerman, and distinguished committee members, I appreciate the 
opportunity to appear before you today to discuss the issues 
and challenges associated with the United States transition 
from a military- to a civilian-led effort in Iraq.
    Ambassador Haslach has discussed the overall U.S. policy 
with regard to transition, so I will focus on the security 
situation in Iraq, which is enabling our responsible drawdown, 
and then say a few words about our support--of the support from 
the Defense Department providing to the State Department to 
help set them up for success.
    I know members have concerns about the readiness of the 
Iraqi Government to provide security in Iraq as U.S. forces 
draw down between now and December 2011 in compliance with the 
U.S.-Iraq security agreement. Indeed, terrorist and militia 
attacks continue to pose a threat.
    In mid-May, for example, an attack consisting of three 
coordinated car bombs in Kirkuk targeted Iraqi policemen and 
killed over two dozen people. And, on May 22, al-Qaeda in Iraq 
conducted a series of coordinated attacks in Baghdad that left 
14 dead and dozens wounded.
    Iraq still faces dangerous and determined enemies, but it 
is important to emphasize that these enemies do not have the 
support of the Iraqi people, and these attacks have not sparked 
a return to widespread insurgency or communal civil war. 
Moreover, despite these recent attacks, the underlying security 
situation remains strong, with attack levels remaining near 
their lowest levels of the entire war for the last 2 years.
    This is particularly remarkable considering that the Iraqi 
security forces have assumed primary responsibility for 
security for the entire country, and our U.S. force numbers 
have declined from roughly 144,000 when the Obama 
administration came into office in January 2009 to roughly 
47,000 today.
    Since January 1, 2009, the Iraqi security forces have been 
in the lead on security operations--a role that they have more 
capably embraced with each passing month. On September 1st of 
last year, we made the transition from Operation Iraqi Freedom 
to Operation New Dawn and drew down to below 50,000 U.S. 
troops, fulfilling President Obama's commitment to end the 
combat mission in Iraq and further cementing the Iraqis' lead 
security role.
    While the United States continues to provides vital support 
to the Iraqi security forces, including training, equipping, 
mentoring, advising, and providing certain critical technical 
enablers, we need to be clear that the Iraqis are very much in 
charge, and they simply no longer need such large numbers of 
U.S. forces to help them keep the violence in check.
    The Iraqi security forces have also remained professional, 
despite the prolonged period of uncertainty associated with 
Iraq's government formation negotiations. Indeed, it remains 
unclear when the Iraqis will name a minister of defense or 
minister of interior. General Austin and Ambassador Jeffrey 
continue to engage Prime Minister Maliki and other Iraqi 
leaders to emphasize the importance of reaching finality on 
this issue.
    Beyond our continuing efforts to build the Iraqi security 
forces and draw down our forces, the Department of Defense and 
other agencies and offices have also undertaken unprecedented 
levels of coordination and planning for the transition in Iraq. 
DoD has an excellent working relationship with the State 
Department, and we are working together at all levels to 
achieve a successful transition.
    As one would expect with a transition of this scope and 
complexity, challenges exist, but rest assured that DoD is 
doing everything it can to help the State Department achieve 
success. To facilitate the whole of government coordination, in 
November of last year DoD embedded a staff officer within the 
transition team in State to serve as a liaison and work day-to-
day issues.
    DoD and State have also established an ad hoc senior 
executive steering group for coordination and synchronization. 
This group is co-chaired at the deputy assistant secretary 
level and meets bi-weekly to review status and progress of the 
eight subordinate functional areas--supply chain, equipment, 
contracting, medical, facilities and construction, information 
technology, security, and aviation.
    Additionally, to expeditiously respond to requests for 
equipment, a combined Office of Secretary of Defense/Joint 
Staff equipping board was established in early January 2011. 
The process consists of working-level representatives from all 
the services, joint staff, and OSD, which feeds recommendations 
for sourcing of equipment to the General Officer/Flag Officer 
Board, chaired by the Joint Staff, JFOR, for approval.
    Currently, in Iraq, a State and DoD team has been 
established in each of the remaining locations to address 
practical solutions to issues resulting from the downsizing of 
the site footprint. The transition of these sites is not a 
turn-key operation, and each presents unique challenges.
    For example, each team needs to establish new perimeters 
and move T-walls, resite and move containerized housing units, 
reroute utilities, and, where needed, undertake general site 
preparation. DoD will also provide State a number of specific 
functions on a reimbursable basis. For example, Bobcat 4 will 
be retained to provide general base operation and life support.
    In conclusion, I want to emphasize that our continued 
engagement with Iraq remains vital. We are now at the point 
where the strategic dividends of our tremendous sacrifices and 
huge investments in Iraq are within reach, as long as we take 
the proper steps to consolidate them. A long-term strategic 
partnership with Iraq, based on mutual interest and mutual 
respect, continues to present many advantages to the United 
States.
    Recent turmoil in the broader Middle East highlights the 
importance of active U.S. engagement and shoring up our 
relations with our key regional partners. DoD strongly believes 
we must remain focused on Iraq in order to advance our broader 
regional objectives of peace, prosperity, and security.
    Thank you.
    Mr. Chabot. Thank you very much.
    Mr. Crowley, you are recognized for 5 minutes.

 STATEMENT OF MR. CHRISTOPHER CROWLEY, SENIOR DEPUTY ASSISTANT 
   ADMINISTRATOR FOR THE MIDDLE EAST BUREAU, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Crowley. Thank you. Chairman Chabot, Ranking Member 
Ackerman, honorable members of the committee, thank you for 
holding this hearing and inviting me to appear before you today 
to discuss the U.S. Agency for International Development's role 
in the transition from a military-led to a civilian-led 
presence.
    USAID has played a major role in the U.S. Government's 
civilian response to Iraqi economic and social needs since 
2003, and will continue to do so. The situation in Iraq has 
dramatically improved over the past few years, but Iraq is 
still very much a post-conflict developing country facing 
considerable development, human resource, and fiscal 
challenges.
    The reduction in violence has created the breathing room 
for Iraqis to begin building their democracy, restoring public 
institutions, and creating conditions for private sector-led 
growth. But continued support is required to further nurture 
Iraq's fledgling democracy and improve its ability to manage 
its own wealth.
    USAID has been supporting overall USG efforts in Iraq since 
2003. The primary objective then was to restore essential 
infrastructure and services. Beginning in 2007, USAID shifted 
much of its resources to a stabilization program, to complement 
the military and civilian surge which began at that time. This 
program focused on community stabilization and administering 
quick response funds to the joint civilian-military provincial 
reconstruction teams.
    USAID support is currently aligned with the Strategic 
Framework Agreement, which outlines the political, economic, 
and security cooperation between the United States and Iraq. 
The agreement focuses on sustainable development programs in 
several sectors and is characterized by increasing levels of 
host country ownership of the costs of these programs.
    Mr. Chairman, the key challenge ahead for the Iraqi 
Government will be in security, essential services, economic 
growth, and strengthening of institutions of democratic 
governance. Now is the time for Iraq to transition from the 
legacy of war and insurgency to one of economic opportunity and 
good governance.
    USAID's democracy and governance programs will continue to 
strengthen the capabilities of Iraqi governance at the 
national, provincial, and local levels. And this includes 
Iraq's gradual transition toward a more decentralized model of 
decisionmaking and control of resources.
    USAID will help Iraq expand its economic growth in non-oil 
sectors, such as agriculture, financial sector development, and 
small and medium enterprise. USAID will also support the health 
sector in Iraq by focusing on strengthening Iraqi primary 
health care.
    We will continue to assist ethnic and religious minorities 
and internally displaced persons. We will also support the 
education sector in Iraq.
    USAID is a strong and growing network of working 
relationships with key leaders in the public and private 
sectors throughout Iraq. Community action groups, provincial 
counsels, farmer cooperatives, all of whom have been partners 
or who have been trained in our programs, continue to work to 
improve the lives of their families and communities.
    USAID has been able to adapt to changing conditions in 
Iraq, and fully expects to be able to adapt to circumstances as 
the military withdraws. We will continue our programs through 
our implementing partners, both American and Iraqi. This has 
been a major strength of our programs, both in terms of our 
ability to engage more directly with our beneficiaries, and as 
a way to project our presence more widely into the country. In 
this way, we are better able to monitor and evaluate the impact 
of our programs.
    Mr. Chairman, along with the Government of Iraq, partners 
in the donor community, and the broader U.S. mission to Iraq, 
USAID will continue the engagement and commitment necessary to 
build on the gains that have already been achieved. USAID will 
be assisting the Iraqis on further developing their own 
abilities and resources to ensure a sovereign, stable, and 
self-reliance Iraq.
    In closing, I would like to thank Ambassador Jeffrey, 
Ambassador Haslach, and their staffs, General Austin and his 
troops, and the many offices and bureaus throughout the 
Department of State, and other U.S. departments and agencies, 
that are involved in this transition. All have provided 
tremendous support to USAID and its mission.
    Thank you again for the opportunity to appear before you 
today, and I will be happy to answer any questions the 
committee may have and look forward to working with you and 
your congressional colleagues.
    [The prepared statement of Ambassador Haslach, Mr. Kahl, 
and Mr. Crowley follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. Thank you, Mr. Crowley. And we want to thank 
all three of the witnesses for their testimony here this 
afternoon.
    And now the members here will have 5 minutes, and I will 
recognize myself for that purpose now, to ask questions.
    The administration has developed so-called minimum 
essential capabilities--MEC--benchmarks, which refer to an end 
state in which ``Iraqi security ministries, institutions, and 
forces can provide internal security and possess maximum 
foundational capabilities to defend against external threats.''
    In its June 2010 report to Congress on Iraq, the Department 
of Defense assessed that only the Iraqi navy is presently on 
course to fully achieve its MEC goals prior to December 2011, 
and Iraq will not be able to independently secure its airspace 
before that date. Overall, the Department of Defense has 
reported that the potential for the Iraqi security forces to 
meet and maintain performance at minimum benchmark levels 
``continues to be reliant on U.S. support.''
    In March 2011, CENTCOM Commander, General James Mattis, 
said in Senate testimony that ``There are going to be loose 
ends unless the Iraqis ask to stay and work on these--ask us to 
stay and work on these issues. And those loose ends would be 
difficult for them to overcome on their own.''
    And, Dr. Kahl, you mentioned one example of recent violent 
occurrence, and it happened to be the one--we were in Baghdad 
the first--this was the third time that I was in Iraq. I was 
there before--after the fall of Saddam but before we caught 
him. That was about 2003. I was back in around 2007, toward the 
end of the surge, and then most recently, as I say, about 1-2 
weeks ago.
    And the day we were in Baghdad was the day that the 
occurrence happened up in Kirkuk, and we met with people who 
had--the general whose staff had been--were some of the 
victims. And, of course, that is evidence of the ongoing 
threats to this country.
    With that being the case, and everything we know at this 
point, how realistic is it for us to be able, under the 
existing plan, to pull that many troops out and basically 
transition from Department of Defense to State? Is the State 
Department up for that task? Is there any precedent for 
anything on this scale? And, you know, what do you think the 
committee should know about that?
    Mr. Kahl. You know, it is our assessment that the Iraqi 
security forces will be--have pretty good capabilities in terms 
of internal defense. We have spent billions of dollars and many 
years building up a very capable counterinsurgency force, as 
well as a capable counterterrorism force.
    In terms of internal defense, I think we see a few gaps 
that are likely to exist beyond 2011. They will have some 
challenges in intelligence. They will have some challenges in 
logistics. The bigger gaps, as you mentioned, Chairman, is the 
gap on external defense. Maritime they will be in pretty good 
shape.
    As you mentioned, they are going to have significant 
challenges as it relates to what we call air sovereignty or air 
defense, and that is going to be true for a number of years. 
And then, they are also going to have some challenges as it 
relates to combined arms--that is, the ability to use their 
forces for conventional combat, to defend their borders against 
conventional adversaries.
    It is important to note that, even in the absence of a 
continued troop presence, there will be ways for us to continue 
to get after these challenges, both through the Office of 
Security Cooperation Iraq, which will facilitate our security 
assistance and security cooperation programs, and through the 
State Department's police development program. so we will be 
able to continue to get after these.
    Anything beyond the Office of Security Cooperation would 
require, under the terms of the security agreement, for the 
Iraqis to ask. And, as you know from your recent visit, they 
haven't yet asked. But the administration has been clear that, 
were they to ask, that we would be happy to start that 
conversation with them.
    Mr. Chabot. Let me get to a second question, if I can. And 
I am going to address this to you, if I can, Madam Ambassador. 
And then, if you want to follow up on anything there, you can.
    I understand that the Special Inspector General for Iraq 
Reconstruction has initiated an audit of the police development 
program, and has requested an entrance conference to begin the 
audit. They have been told that the Department has informally 
taken the position that SIGIR does not have authority to audit 
this program, even though it is funded by the International 
Narcotics Control and Law Enforcement Fund, which fund SIGIR 
has authority over under Public Law 108.106, as amended.
    My view is that SIGIR has done important work on police 
training, which is clearly part of Iraq's reconstruction, and 
we will need to continue to look at this program going forward. 
And I also, further, think it is inappropriate for the 
Department to try to block SIGIR's access to information on how 
preparations to carry out a prospective appropriation of more 
than a billion dollars are proceeding.
    Please let me know what you plan to do to facilitate 
SIGIR's ability to continue to do its work.
    Ambassador Haslach. Thank you, Mr. Chairman. We have sought 
to be consistently forthcoming with our responses to all of the 
various requests for documents and information during the 
planning effort, including those from SIGIR. In fact, I worked 
very closely with SIGIR's employees when I was in Iraq.
    We appreciate the efforts undertaken by SIGIR to perform 
audits and investigations of reconstruction activities in Iraq, 
and have provided them with requested materials that we feel 
fall under its mandate. As the Department engages in the 
significant transition from a military- to civilian-led mission 
in our Iraq, our assistance is also transitioning from largely 
reconstruction-based to technical assistance and capacity-
building.
    We do not read the responsibilities assigned to SIGIR in 
its founding statute as extending to the State Department's 
operations in support of our diplomatic platform in Iraq. Those 
audit responsibilities fall, we feel, within the purview of 
other oversight and audit entities such as the Government 
Accounting Office, the survey and investigation staff of the 
House Appropriations Committee, the Department of State Office 
of Inspector General, and the Commission on Wartime 
Contracting.
    Mr. Chabot. Thank you. And just me conclude with a quick 
statement, that we have spent billions of dollars over there, 
and auditing those dollars and making sure that that is being 
spent appropriately and not wasted or ripped off by some entity 
is critical. So we would ask your cooperation in continuing 
that.
    Thank you very much.
    And I will now yield to the ranking member from New York, 
Mr. Ackerman.
    Mr. Ackerman. Thank you very much. Thank you all for your 
testimony. Is there somebody in the administration that is in 
charge of selling this to the American people?
    Ambassador Haslach. Well, in my building, it is the 
Secretary of State.
    Mr. Ackerman. I mean, somebody specifically who has the 
responsibility of explaining to the American people why we are 
doing this, that the American people think we have already 
done.
    Mr. Kahl. You know, the only thing that I would add, I 
mean, both our Secretaries are heavily involved. It is a top 
priority for both Secretary Gates and Secretary Clinton. And, 
of course, Vice President Biden was tasked by President Obama 
right off the bat to lead our Government's efforts. But in 
terms of a government spokesperson, I mean, I guess that is in 
the eye of the beholder.
    Mr. Ackerman. What you are both indicating is that there is 
none. And I am suggesting that there is a key problem here, 
because the American people thought they bought this, used it, 
and finished with it, and they are done with it and don't have 
to make any further investments.
    And it seems to be not the case, and it--these kinds of 
things are going to be very, very difficult to do in the 
ensuing months, if not years, given all the givens, both 
realities and the political terms that we have to come to and 
deal with. And that is not necessarily a good thing.
    This seems to be--Iraq seems to have been a marriage of 
convenience, and everybody seems to agree that there should be 
some kind of a divorce. But when? And everybody thought we were 
waiting for the final papers to come through, and now we seem 
to have some remorse about that. And maybe we are sticking 
around for the sake of the children, and now they are all 
saying we should leave, although they really mean we should 
stay, but we ain't staying unless they ask us, and it seems 
like a mess.
    And I don't know how you explain that to the civilian 
population that is going to be asked to pay for child support.
    All right. I guess I will move on to something else. Is 
there any war in this region, in the entire region, that we can 
afford to ever finally leave?
    Mr. Kahl. You know, I don't want to speak outside the lane 
of--you know, my particular portfolio stretches from Egypt up 
through Iraq and around down to Yemen.
    Mr. Ackerman. Right. Can we afford to leave Egypt? Can we 
afford to leave Libya? Can we afford to leave anywhere?
    Mr. Kahl. I think that we have profound national interest 
in this part of the world, countering weapons of mass 
destruction, countering violent extremism, energy security, the 
safety and security of Israel and our other strategic partners. 
So I think we are heavily invested in this part of the world. 
We have a sizeable presence in this part of the world. We are 
likely to remain postured at a pretty high level, even as we 
drawn down from Iraq.
    So I don't know whether the question is ``ever,'' but we 
are----
    Mr. Ackerman. Draw down means 5 to 7 years and billions of 
dollars. You start multiplying that across a region where 
everything is 5 to 7 years, that is going to shift the 5 to 7 
years by the time we get to 6 years, and it is going to cost 
more billions of dollars.
    I am not advocating leaving this place yet, you know, but I 
just want to know, because of the lack of an answer to my first 
question, if there is nobody in charge of selling it, nobody is 
going to buy it.
    Mr. Kahl. Well, you know, I would say that we have made a 
consistent case, as the administration--the President did so 
again last week when he gave his big Middle East speech--of 
emphasizing the importance of the long-term strategic 
partnership with Iraq, and that it is especially important in 
light of all the events with the Arab Spring.
    So we have--I mean, Iraq has been so important to our 
national interest for 20 years that we have either been at war 
against Iraq or in Iraq for 20 years. So, clearly, we have made 
an investment.
    Mr. Ackerman. What about a financial partnership? You are 
talking about billions of dollars in supporting a partner that 
is richer than we are in many ways. Well, not really, but they 
seem to have some bucks. And they are going into financial 
partnerships with other people, which means they are cheating 
on us.
    Ambassador Haslach. Well, Representative Ackerman, we have 
no intention of leaving Iraq. I think it was pretty clear in 
our opening statements--all three of us--and, in fact, we have 
asked for assistance----
    Mr. Ackerman. The American people think we have left. They 
think we have made the political decision that we--here is the 
problem. You have no intention of leaving, and everybody else 
in the country, except those who are really finely tuned, which 
is a very limited audience, thinks we have already done that. 
And I would suggest that is a disaster of a short--an 
intermediate-term problem, because it ain't going to be just 
Iraq that is on the plate in this situation.
    And somebody in the administration really has to start 
thinking about that long term. Even if long term only means 5 
to 7 years, how do you sell a billion dollar program to people 
who think that they are done with the payments?
    Ambassador Haslach. Representative Ackerman, if I may, 
Deputy Secretary Nides will be chairing a roundtable discussion 
on Friday with approximately 30 presidents and CEOs of major 
U.S. companies to talk about the challenges and the 
opportunities of investing in Iraq. He will also be meeting--
having a number of press interviews, along with Ambassador 
Jeffrey, to be making the case that Iraq is worth all of the 
effort and worth the long-term commitment that we have made.
    Thank you.
    Mr. Ackerman. Those people might have a financial incentive 
to invest in Iraq, because it might be good for their 30 or 
whatever companies. But the American people don't necessarily 
own that portfolio and aren't going to see it that way, if I 
could put on my public relations hat and try to understand 
where the American people are going to be coming from.
    And I will just say it again--if you ain't got no one to 
sell it, you ain't got no one going to buy it. I taught English 
better than that.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you, Mr. Ackerman.
    And the gentleman from Virginia is recognized for 5 
minutes.
    Mr. Connolly. Thank you, Mr. Chairman. Welcome.
    I wonder if you could comment--well, first of all, I should 
ask, what is your understanding of how much CERP funding there 
is in this fiscal year? For Iraq and/or for Afghanistan.
    Mr. Kahl. I can't speak to Afghanistan, Congressman, 
because it is not in my portfolio. I believe we have requested 
$25 million for FY12.
    Mr. Connolly. Mr. Crowley, are you familiar with the CERP 
program?
    Mr. Crowley. Yes, sir, I am.
    Mr. Connolly. Is it your understanding it is well in excess 
of a billion dollars?
    Mr. Crowley. Not in Iraq at the present time it isn't.
    Mr. Connolly. Not in Iraq. I am just talking about CERP.
    Mr. Crowley. No. I am not sure what the overall dimensions 
of it are.
    Mr. Connolly. You don't know what the number is.
    Mr. Crowley. No, sir.
    Mr. Connolly. If it were that order of magnitude, what are 
the conditions on programming of that money? I mean, you work 
for AID. AID has all kinds of constraints and regulations and 
legal requirements. What are the comparable constraints on the 
use of and reporting of and auditing of CERP funds?
    Mr. Crowley. Well, I know how CERP funds were used in Iraq 
during the period I was there. And, by and large, they were 
used by the military units and the provincial reconstruction 
teams to deal with rapid response capabilities to various 
economic and other issues on the ground. These are more short-
term programs to respond to local situations.
    USAID works in a longer term----
    Mr. Connolly. Mr. Crowley, I am quite familiar with how 
USAID works. But would it not be of concern to you--it 
certainly is to me--that I agree with your--that was the 
original intent. But when you have that kind of intent, that is 
a relatively modest amount of money.
    When you get to very significant sums of money, would it 
not--I am asking you to put on your professional hat, not your 
public policy hat--as a professional, would it not concern you 
that now we have a different management challenge when the 
magnitude isn't $25 million, its a billion plus.
    Next door to Afghanistan--I know it is not your portfolio--
but would that be of concern to you as a professional at AID?
    Mr. Crowley. Yes, sir, it would. And I would be building in 
all kinds of safeguards and overlapping mechanisms in order to 
make sure that that money is spent appropriately.
    Mr. Connolly. I would, too.
    Mr. Kahl, is it of any concern at all--I know it is not 
your portfolio, as you have pointed out--but at the Pentagon, 
any concern? Ever pick up anything by the water fountain?
    Mr. Kahl. Congressman, I just am not going to speak to 
Afghanistan. It is not in my portfolio. But I would be happy to 
take your question.
    Mr. Connolly. I am asking you to speak about whether you 
have a concern, on behalf of the taxpayers of the United 
States, that we have a program--irrespective of where it is--
that has now ballooned in terms of value? It is not a $25 
million program, and there are only two countries we are really 
talking about here.
    And does it concern you at all, from a management point of 
view--even in the theoretical realm, let us say, so you 
comfortable in your silo--that it has so little supervision and 
so little restraints in a way that would be comparable to how 
we do constrain the programming of USAID money?
    Mr. Kahl. I think I would disagree with your 
characterization that there is little accountability or little 
restraint. There is actually a great deal of coordination 
between DoD, State, and USAID, and a great deal of reporting to 
Congress on all of the projects that are built with CERP. 
SIGIR, an organization we talked about earlier, has done 
regular assessments of it.
    I can't speak to the magnitude or the specific projects in 
Afghanistan, because none of us work on Afghanistan. I would 
encourage you to direct that to our colleagues who do, and we 
would be happy to take that question back.
    In Iraq, there was $100 million of CERP requested in FY11. 
We actually didn't spend all of that money, and then, in FY12, 
we requested $20 million. And this is basically simply to 
finish off some projects in that last bit of calendar year 2011 
that includes the first part of Fiscal Year 2012.
    Mr. Connolly. Well, for the record, I thank you for the 
advice. I, in fact, already took it, and I did talk to the head 
of SIGIR. And he would not share your confidence, I think, in 
the CERP program.
    And, as a matter of fact, in Afghanistan, a number of 
people have already been fingered for, frankly, because it is a 
cash program, and the amounts are, relative to USAID amounts, 
quite substantial, that we actually have some people who, 
unfortunately, have yielded to temptation. And it has to do 
with the lack of accounting and accountability.
    At any rate, I commend it to you. And since you have 
offered, thank you, I will take you up on it. Please do get 
back to me, and this committee, in terms of what constraints 
are in place and accountability mechanisms are in place in this 
growing program.
    Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired.
    We will go to a second round. If the gentleman has any more 
questions, we will get to them in just a second.
    Mr. Connolly. Oh, all right. What do you think about--no. 
[Laughter.]
    Mr. Chabot. I just have a couple extra myself, and then I 
will get right back to you.
    Just a couple of quick questions. I assume all of the panel 
members would agree that it is not only in Iraq's best 
interest, but also in America's best interest, that we see a 
democratic--for the most part--Iraq prosper and flourish. I am 
seeing nods of assent by everyone there.
    And how is it in America's best interest? I mean, I know it 
is an obvious question, but why is it in our best interest, at 
this point and beyond, not taking into consideration the fact 
that we have lost, you know, thousands of our men and women 
there, which is clear, and a lot of treasure has been spent 
there, or money.
    But how is it in our long-term best interest that Iraq is 
essentially a successful country in that important and 
tumultuous part of the world? And I see two of you chomping at 
the bit.
    Ambassador Haslach. Well, we have a recent example of when 
Iraq was just the opposite of that, so I think it is pretty 
clear it is in our interest that we have a stable and 
democratic government in Iraq, especially in that region 
surrounded by some less stable and less democratic governments. 
So we----
    Mr. Chabot. Yes, I know. That is the obvious. But why is 
it? Why, you know----
    Ambassador Haslach. Well, it is for our own security, but 
it is also for the security of the region. And it also is for 
the world's economic benefit and for the potential that Iraq, 
you know, has to become what it once was before--a middle-
income country, a prosperous country, a stable country, a 
partner of ours, a partner of other democracies in the world. I 
think we have only to gain from Iraq being a democracy. 
Frankly, we have a lot to lose if they were to revert back.
    Mr. Chabot. Okay. Dr. Kahl.
    Mr. Kahl. I would agree with all of that. I would add that, 
you know, Iraq historically has been a source of instability 
and an aggressor state in this part of the world. And I think 
it is our hope that a democratic Iraq will be a more moderate 
actor that we can work with in the Middle East, which is, you 
know, a region that is vital to our interest for all the 
reasons that we talked about before.
    I would also point out that, given the kind of mosaic of 
sectarian and ethnic communities in Iraq, only a democratic 
system can hold that country together--that is, can lead to the 
types of political accommodations and mechanisms to combat 
extremism that will keep Iraq stable over the long term.
    I mean, Saddam was able to keep a lid on instability, but 
Iraq wasn't stable. Iraq was a brutal dictatorship.
    Iraq has gone now through a period of instability following 
the 2003 invasion, but it has come out of that and is now on 
the right trajectory. And, as President Obama said, we have an 
interest in continuing that trajectory. And in the context of 
the Arab Spring, it only magnifies all of those arguments. 
Especially now that we are trying to stand up and consolidate 
democracies in Egypt and in Tunisia and encourage reform in 
other parts of the world, it is even more important to get Iraq 
right.
    Mr. Chabot. Okay. And obviously, as I had stated in my 
opening statement, the United States has spent nearly a decade 
securing and helping to build the foundation of a prosperous 
and democratic Iraq. And that it--a premature withdrawal could 
risk squandering those gains, and that would be a failure of 
colossal proportions. I assume all of the members of the panel 
agree with that statement?
    Ambassador, did you want to----
    Ambassador Haslach. Yes. This goes back to your actual 
first--your first question, too. I mean, we are not abandoning 
Iraq, and we have asked for assistance to help to continue to 
train their police forces. We have asked for assistance to 
continue to train and equip the Iraq security forces, and, in 
fact, we--in FY12, we have asked, under the Foreign Military 
Financing Program, for a substantial amount of money, which we 
feel is essential to help Iraq defend itself against the 
external threats that you were asking about before.
    So, I mean, our plan is actually to stay there and to help 
them with this. USAID--we have already requested economic 
support funds to help them on the capacity-building side, 
fragile institutions, years of instability and repression. And 
so we are not done, but we feel that we are well on the way to 
a much better situation there.
    Mr. Chabot. And I assume that the panel would agree that 
Iran, at least in the least 30 years or so, has been, shall we 
say, an unhelpful actor in that region. And if Iraq falls under 
their influence, or they are not able to stand up to Iran, that 
would be very unstable and would certainly hurt the U.S. 
foreign security interests around the world. Is that correct?
    Okay. And I think I am seeing affirmative. Dr. Kahl, did 
you want to say something?
    Mr. Kahl. Yes. I would only say that, you know, a strong 
Iraq is likely to not be a puppet dangling at the end of Iran's 
strings.
    Mr. Chabot. Right.
    Mr. Kahl. I think that a strong Iraq that has a strategic 
partnership with us and has relations with all its neighbors, 
which is what all of Iraq's leaders want, is going to be a--you 
know, is going to want to maintain its sovereignty, 
independence, and is going to be a fiercely nationalistic 
place. And so I don't think the Iraqis want to be dominated by 
Iran, which is the most important aspect.
    Mr. Chabot. Without objection, I will grant myself 1 
additional minute here to just make one final observation here 
in the time that I have with that 1 minute. And that is that 
one of the things that was a bit disturbing, although not 
probably something you wouldn't expect, would be the fact that 
the parliamentarians that we met with about whether or not 
there needed to be U.S. involvement beyond the end of this 
year, we are unwilling to make that commitment, although to a 
person--every one of them indicated yes, but we really can't 
say that publicly, because we run for office as well.
    And they said that is for Maliki to say, and spokespeople 
for Maliki indicated, well, the parliamentarians, you know, 
those are the folks that you have to go to. So, and it is not 
unlike what we see here in Washington on occasion when some of 
the big issues--everybody points a finger at the other--maybe 
it is the administration. Maybe it is Congress. Maybe it is 
Democrats or Republicans, but this is an important key issue.
    And the politicians in Iraq are going to have to step up to 
the plate as well, because for the United States to pull out by 
the end of this year, and turn over complete--the future of 
that country before they are ready, could literally, you know, 
have defeat out of the jaws of victory, and that is what we 
don't want to see here, for the United States or for the Iraqis 
as well.
    I want to thank the panel. And, at this point, I will yield 
to the gentleman from Virginia, Mr. Connolly, if he has any 
additional questions he would like to ask.
    Mr. Connolly. I do. I do, Mr. Chairman. Thank you.
    Mr. Kahl, you indicated in my previous round of questioning 
that your understanding of the CERP program in Iraq was that it 
was $25 million?
    Mr. Kahl. For the FY12, the request is for----
    Mr. Connolly. For FY12.
    Mr. Kahl. For FY12. And it was $100 million, my 
understanding, for FY11, which we didn't spend all of that 
money.
    Mr. Connolly. Perhaps your staff can confirm this, but am I 
reading the SIGIR report right that since 2003 the total amount 
of CERP funding in Iraq was $3.89 billion?
    Mr. Kahl. Sir, I will have to get back to you on the exact 
number. But we have spent a considerable amount of CERP money 
in Iraq since 2003.
    Mr. Connolly. Right. More than $25 million a year.
    Mr. Kahl. Yes, Congressman. That is why I said $25 million 
for fiscal----
    Mr. Connolly. Right. I understand. I am trying to get at 
magnitude, Mr. Kahl. And is it your testimony that, if I 
understood you correctly in your answer to my previous 
question, that you are satisfied or you believe that we can be 
satisfied that all of the right accounting and transparency is 
in place, just as it is for USAID programming?
    Mr. Kahl. What I would say is that, you know, CERP was an 
innovation in Iraq largely to enable our counterinsurgency 
operations. And that we learned along the way, frankly, and 
that we are better now than we were at the beginning. So it 
would not surprise me if, going back and looking at how the 
program was executed at the very beginning, you found a lot 
more problems with how it is executed now.
    I would say that the program is more accountable, that 
there is better coordination, and that that money is better 
used now than was the case in 2004, for example. But are there 
no challenges? Well, every program of this size will have 
challenges.
    Mr. Connolly. No one has suggested that there were no 
challenges, Mr. Kahl. The question was whether you felt that 
there were adequate mechanisms of accountability and reporting 
and transparency as there sort of are with USAID programs, such 
that the Pentagon is satisfied.
    Mr. Kahl. I feel that we are in a good place in executing 
CERP programs in Iraq, which is the portfolio that I cover, and 
I can't speak to Afghanistan.
    Mr. Connolly. I understand. You have made that clear; you 
can't speak about anything outside of your portfolio. However, 
certainly, since the taxpayer pays for this, it is not an 
unreasonable expectation that we might up here expect that what 
you learned in your portfolio has applicability elsewhere. 
Would that be a fair thing?
    Mr. Kahl. It is absolutely true that the way the program is 
being applied in Afghanistan learned from the lessons in Iraq. 
But in terms of how it is being executed on the ground in 
Afghanistan, I can't speak to that.
    Mr. Connolly. All right. I look forward to having more 
dialogue about this, because I think CERP has grown so big that 
it presents very serious problems in terms of accountability 
and transparency. And I would love to have you submit for the 
record more detail about what the Pentagon learned in this time 
period.
    As you said, we have improved and evolved. That is great. 
But I want to know what that is, and I also want to know how--
what its applicability is to other places. Obviously, I have 
Afghanistan in mind, but I won't burden you with Afghanistan.
    Let me ask a totally separate question real quickly. One of 
the things, in talking to reconstruction folks, that they 
suggest is that it is time we have a permanent Office of 
Stabilization and Reconstruction Operations, because we sort of 
reinvent the wheel every time something comes up. And that if 
we had an office centrally located with expertise, knowing the 
ropes in the SOPs, and so forth, and the rolodex of vendors and 
providers and nonprofits and everything else, that that would 
make us, frankly, a lot more efficient and save taxpayer 
dollars.
    Any comments on that suggestion or observation? Mr. 
Crowley.
    Mr. Crowley. Well, there is an office in the State 
Department that has the purpose of doing exactly that, and I 
think Ambassador Haslach would be better positioned to comment 
on it. And USAID works closely with that office in situations 
where these kinds of responses are required.
    We also have our own Office of Transition Initiatives, 
which is itself built around providing responses to these kinds 
of situations, but it works hand in hand with SERS, which is 
the State Department office that is tasked with that 
responsibility. So----
    Mr. Connolly. Mr. Chairman, I know we are running--would 
you indulge just to allow Ms. Haslach to be able to respond?
    Mr. Chabot. The gentleman is recognized for 1 additional 
minute.
    Mr. Connolly. I thank the chairman.
    Ambassador Haslach. Mr. Crowley is right. There is an 
office at the State Department that is tasked with exactly what 
you are talking about. And, in fact, under the Quadrennial--the 
QDDR, the Quadrennial Development and Diplomacy Review, in 
fact, there are a number of suggestions on how that office can 
be strengthened to fulfill the role you are recommending.
    Mr. Connolly. Okay. Again, if you wanted to get back for 
the record, anything, that would be great. Thank you so much.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Chabot. Thank you. The gentleman yields back.
    Would the gentleman from Pennsylvania--we are ready to wrap 
up the hearing. So you are welcome to ask questions, if you 
have some questions, Tom.
    Mr. Marino. I apologize for being late, and I have no 
questions.
    Mr. Chabot. No problem. Okay. Well, thank you very much.
    And if there is no further business to come before the 
committee, we want to thank the panel for their testimony and 
answering our questions here this afternoon. And without 
objection, all members will have 5 minutes--or, excuse me, 5 
days to submit questions or statements to the record.
    And if there is no further business to come before the 
committee, we are adjourned.
    Thank you.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
